No..

In The
Supreme Court of the Gnited States

BRYAN LAMAR BROWN,
Petitioner,
Vv.

UNITED STATES OF AMERICA,
Respondent.

AFFIDAVIT OF SERVICE

I, Karen R. Taylor, being eighteen years or older, do certify under penalty of
perjury that the foregoing is true and correct. That on the 29th day of October,
2020, I filed a copy of the Petition of Writ of Certiorari and Motion for Leave to
Proceed In Forma Pauperis with the United States Supreme Court via UPS Ground
Transportation. I further certify that I served a copy of said Petition via UPS
Ground Transportation addressed to the following:

Solicitor General of the United States
Department of Justice

950 Pennsylvania Avenue, NW, Room 5614
Washington, DC 20530-0001

Aidan Taft Grano Lisa Rae McKeel

Howard J. Zlotnick Office of the United States Attorney
Office of the United States Attorney Suite 300

Eastern District of Virginia Fountain Plaza

2100 Jamieson Avenue 3721 Lakefront Commons
Alexandria, VA 22314-5194 Newport News, VA 23606-0000

Counsel for Respondent

Karen R. Taylor

Gibson Moore Appellate Services, LLC
206 East Cary Street

Richmond, VA 23219
For:

Trey R. Kelleter
KELLETERLAW PC

409 Duke Street, Suite 100
Norfolk, Virginia 23510
(757) 500-7666

Counsel for Petitioner

Signed and subscribed before me on this 29th day of October, 2020.

    

Bradford

Bradford E. Moore
NOTARY PUBLIC

Commonwealth of Virginia
Reg. #7241026
Commission Exp. 4/30/2021

 
